No. _________

In the Supreme Court of the United States
STATE OF MICHIGAN, PETITIONER
v.
WILLIAM SHOULDERS
ON PETITION FOR A WRIT OF CERTIORARI
TO THE MICHIGAN SUPREME COURT

PETITION FOR A WRIT OF CERTIORARI
Kym Worthy
Wayne County Prosecutor
Jason W. Williams
Chief of Appeals,
Wayne County Prosecutor’s Office
David A. McCreedy
Assistant Prosecuting Attorney
Counsel of Record
1441 St. Antoine, Room 1116
Detroit, Michigan 48226
dmccreed@waynecounty.com
(313) 224-3836
Attorneys for Petitioner

ii
QUESTION PRESENTED
In Michigan’s “indeterminate” sentencing scheme,
judgments of sentence contain two numbers: the minimum number of years the defendant will have to
serve before becoming eligible for parole, and the maximum number of years that he or she could be incarcerated without parole. Under Michigan law, the second number is fixed by the statutory penalty for the
crime. The first, however, is determined in reference
to statutory sentencing guidelines. This Court has
held that increasing the second number—the maximum sentence—by reference to facts not found by a
jury violates the Sixth Amendment right to trial by
jury. But this Court has also held that the first number—a convict’s early release date—is not subject to
that provision.
In People v. Lockridge, the Michigan Supreme
Court invalidated this state’s sentencing guidelines
statute—which pertains only to the first number—because the guidelines operate off judge-found, rather
than jury-found, facts. The court grounded its 2015
decision in this Court’s Sixth Amendment sentencing
jurisprudence: Alleyne v. U.S., Apprendi v. New Jersey, and U.S. v. Booker.
The question presented is whether—in determining the offense-related facts which establish a criminal defendant’s earliest parole
date—the Sixth Amendment requires a state to
impanel a jury.

iii
PARTIES TO THE PROCEEDING
The petitioner is the State of Michigan, which was
the appellant in the Michigan Supreme Court. The respondent is William Shoulders, who was the appellee
in the Michigan Supreme Court.

iv
TABLE OF CONTENTS
Question Presented..................................................... ii
Parties to the Proceeding .......................................... iii
Petition Appendix Table of Contents ........................ vi
Table of Authorities .................................................. vii
Opinions Below ........................................................... 1
Jurisdiction ................................................................. 1
Constitutional and Statutory Provisions Involved .... 1
Introduction ................................................................ 3
Statement of the Case ................................................ 4
A. Indeterminate sentencing in Michigan ......... 4
B. Shoulders’ crime and punishment................. 5
C. Preservation of the Sixth Amendment
claim ............................................................... 7
Reasons for Granting the Petition ............................. 8
I.

The Michigan Supreme Court’s decision is
contrary to Blakely, where this Court
recognized that indeterminate sentencing
does not infringe on the role of the jury. ............. 8

II. The Michigan Supreme Court failed to grasp
the differences between determinate and
indeterminate sentencing. ................................... 9
A. The “minimum sentence” at issue in this
case is different from the “minimum
sentence” at issue in Alleyne. ...................... 10
B. Alleyne broke no new ground on the
question whether Michigan minimum
sentences are subject to Apprendi. .............. 13

v
C. The Lockridge decision is a significant
break from precedent. .................................. 14
III. Review is also warranted because the lower
court struck down an important state statute
based on federal law. .......................................... 16
IV. Unlike Michigan v. Lockridge, this case
presents a case and controversy. ....................... 17
Conclusion ................................................................. 19

vi
PETITION APPENDIX TABLE OF CONTENTS
People v Shoulders
Michigan Supreme Court
Order in 159642
Issued April 17, 2020 .......................................... 1a–2a
People v Shoulders
Michigan Court of Appeals
Opinion in 342408
Issued March 28, 2019 ...................................... 3a–13a

vii
TABLE OF AUTHORITIES
Cases
Alleyne v. United States,
133 S. Ct. 2151 (2013) ................................ passim
Apprendi v. New Jersey,
530 U.S. 466 (2000) .................................... passim
Blakely v. Washington,
542 U.S. 296 (2004) .................................... passim
Carroll v. Hobbs,
442 S.W.3d 834 (Ark. 2014) ............................... 12
Cunningham v. California,
549 U.S. 270 (2007) ............................................ 13
Graham v. Florida,
560 U.S. 48 (July 6, 2010) .................................... 9
Greenholtz v. Inmates of Nebraska Penal & Corr.
Complex,
442 U.S. 1 (1979) ...................................... 9, 11, 15
Harris v. United States,
536 U.S. 545 (2002) ................................ 10, 11, 12
Hurst v. Florida,
136 S. Ct. 616 (2016) .......................................... 14
Michigan v. Lockridge,
136 S. Ct. 590 (2015) ............................................ 6
Morrissey v. Brewer,
408 U.S. 471 (1972) ............................................ 15
People v. Claypool,
684 N.W.2d 278 (Mich. 2004) ............................. 13
People v. Drohan,
715 N.W.2d 778 (Mich. 2006) ......................... 4, 13

viii
People v. Harper,
739 N.W.2d 523 (Mich. 2007) ............................. 13
People v. Lockridge,
870 N.W.2d 502 (Mich. 2015) ..................... passim
People v. McCuller,
739 N.W.2d 563 (Mich. 2007) ............................. 13
Ring v. Arizona,
536 U.S. 584 (2002) ............................................ 14
United States v. Booker,
543 U.S. 220 (2005) ........................................ 6, 13
Wolff v. McDonnell,
418 U.S. 539 (1974) ...................................... 14, 15
Statutes and Constitutions
28 U.S.C. § 1254(2) (1988 ed.) .................................. 16
28 U.S.C. § 1257(a) ..................................................... 1
Mich. Const. Art. 4, § 45 .......................................... 16
Mich. Comp. Laws § 769.34 ...................................... 11
Mich. Comp. Laws § 257.625 ..................................... 6
Neb Rev Stat § 83-1,107(2) ....................................... 14

1
OPINIONS BELOW
The order of the Michigan Supreme Court denying
leave to appeal (App. 1a) is available at 941 N.W.2d
55 (Mem). The opinion of the Michigan Court of Appeals (App. 3a) is not reported, but is available at 2019
WL 1411943.
JURISDICTION
The Michigan Supreme Court entered its order
denying leave to appeal on April 17, 2020. App. 1a.
Petitioner invokes this Court’s jurisdiction under 28
U.S.C. § 1257(a), because “the validity of a statute of
[a] State is drawn into question on the ground of its
being repugnant to the Constitution … of the United
States[.]”
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Sixth Amendment provides in part:
In all criminal prosecutions, the accused
shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and district wherein the crime shall have been committed; … .
Mich. Comp. Laws § 769.34 provides in part:
(2) Except as otherwise provided … the
minimum sentence imposed by a court of this
state for a felony … shall be within the appropriate sentence range under the version of
those sentencing guidelines in effect on the
date the crime was committed. …

2
(3) A court may depart from the appropriate
sentence range under the sentencing guidelines … if the court has a substantial and compelling reason for that departure and states
on the record the reasons for departure.
Mich. Comp. Laws § 791.234 provides in part:
(1) Except as provided in [Mich. Comp.
Laws § 791.234a], a prisoner sentenced to an
indeterminate sentence and confined in a
state correctional facility with a minimum in
terms of years … is subject to the jurisdiction
of the parole board when the prisoner has
served a period of time equal to the minimum
sentence imposed by the court for the crime of
which he or she was convicted, less good time
and disciplinary credits, if applicable.

3
INTRODUCTION
The Sixth Amendment provides a criminal defendant with the right to have a jury determine, beyond a reasonable doubt, any fact that increases his
sentence—that is, the amount of time he must serve
before he will have a legal right to be released. When
there is a range of years within which a sentencing
judge may determine a defendant’s ultimate sentence,
this right applies to facts that increase either the maximum possible sentence, Apprendi v. New Jersey, 530
U.S. 466 (2000), or the minimum possible sentence,
Alleyne v. United States, 133 S. Ct. 2151 (2013). In
other words, the question — “when must a defendant’s
liberty be restored?”— cannot be determined by judgefound facts.
But this Court has never required that a jury determine the facts relating to a defendant’s parole eligibility date—when he “may” be released from custody. Quite unlike a sentence, a parole eligibility date
is not a right to be released; indeed, it is not a right at
all, but rather a date on which the government may
exercise grace by releasing the convicted defendant
before the law requires such release. As this Court explained in Blakely v. Washington, such “indeterminate” sentencing does not infringe on the province of
the jury for a simple reason: “the facts do not pertain
to whether the defendant has a legal right to a lesser
sentence—and that makes all the difference insofar as
judicial impingement upon the traditional role of the
jury is concerned.” 542 U.S. 296, 308–09 (2004).
Here, Michigan’s statutory guidelines required respondent to serve at least three years of the 15-year
penalty for the drunk-driving death that he caused,

4
but the Michigan Supreme Court nullified that provision based on its misapplication of the Sixth Amendment and this Court’s precedents. As a result, respondent got off with only 39 days incarceration. This
Court should grant certiorari, reverse the Michigan
Supreme Court’s Lockridge decision, and thereby vindicate both the state’s democratic process and its efforts to promote an equitable and uniform sentencing
scheme.
STATEMENT OF THE CASE
A. Indeterminate sentencing in Michigan
Michigan’s statutory regime for sentencing is an
indeterminate sentencing system, in which the defendant is given a sentence with both a minimum and
a maximum. Except for life offenses (in which the
judge can give any term of years), the maximum is not
determined by the sentencing court but is set by law.
Mich. Comp. Laws § 769.8. The minimum is based on
guidelines ranges and sets the defendant’s earliest parole eligibility date. The trial judge sets the minimum
but can never exceed the statutory maximum. See
People v. Drohan, 715 N.W.2d 778 (2006).
The terms “maximum sentence” and “minimum
sentence” have different meanings in determinate
sentencing schemes versus indeterminate ones such
as Michigan’s. For example, consider a sentence of “10
to 20 years.” In an indeterminate system like Michigan’s, that range means a prisoner will not have a
right to be released until he has served a fixed term of
20 years (his “maximum sentence”), but he will be eligible for parole consideration after 10 years (his “minimum sentence”). In contrast, a determinate sentence

5
of 10 to 20 years means that a judge will select a fixed
term somewhere within that range; if the judge selects
a 12-year sentence, then the prisoner may be incarcerated for up to 12 years. In the determinate scheme,
both the 10-year minimum possible sentence and the
20-year maximum possible sentence fall away, and
the prisoner has an actual sentence of 12 years.
For an indeterminate sentence, then, the maximum sentence is the actual sentence for Sixth Amendment purposes, and the minimum sentence is the parole eligibility date; for a determinate sentence, the
maximum and minimum sentences are simply the
outer bounds of the actual fixed term the judge will
impose.
B. Shoulders’ crime and punishment
The facts of the underlying crime are not critical
to the legal question presented and so are only briefly
recited here.
Despite being legally intoxicated, respondent
drove sixty or seventy miles an hour on a surface
street after midnight, ran a red light, and t-boned a
car crossing the intersection in front of him, killing the
driver and seriously injuring the passenger. Shoulders had a blood-alcohol content of at least .10, and
on-the-scene witnesses said he had slurred speech,
glassy eyes, and smelled of intoxicants. After respondent waived his right to a jury trial, a judge found him
guilty of two offenses: operating under the influence
of alcohol, causing death; and operating under the influence of alcohol, causing serious injury.

6
The statutory penalty for count one (OUIL causing death) was up to 15 years imprisonment; for count
two (OUIL causing serious injury) respondent faced
up to five years. See Mich. Comp. Laws §§ 257.625(4)
and (5). Michigan’s statutory sentencing guidelines
required that he serve a minimum prison sentence of
at least three years before parole consideration on
count one; nevertheless, the trial judge initially gave
him only 12 weeks jail time, which the court later reduced to 39 days. This drastic downward departure
from the legislative scheme had been enabled by the
Michigan Supreme Court’s decision in People v.
Lockridge, 870 N.W.2d 502 (Mich. 2015), which held
that mandatory application of the guidelines statute
was unconstitutional.
Specifically, Lockridge struck down Michigan’s
guidelines statute as contrary to the Sixth Amendment guarantee of trial by jury, as this Court had interpreted the right in Alleyne and Apprendi. The
court’s remedy was similar to the remedy this Court
imposed in United States v. Booker, 543 U.S. 220
(2005): the guidelines would henceforth be advisory
only. (The Court concluded that Lockridge himself
had suffered no Sixth Amendment violation, and denied him any relief. Id. at 521–22.)
The State filed a petition for certiorari in
Lockridge (No. 15-416). In opposition, Lockridge
pointed out that Michigan was the prevailing party in
the Michigan Supreme Court and that he himself had
received no relief. This Court denied the petition.
Michigan v. Lockridge, 136 S. Ct. 590 (2015).

7
C. Preservation of the Sixth Amendment
claim
In the present case, the State appealed respondent’s below-guidelines sentence on both state and federal grounds, arguing that (a) the trial court had imposed an unreasonably low minimum sentence under
state law, and (b) the mandatory guidelines should
have governed the minimum sentence (that is,
Lockridge was wrongly decided under this Court’s
precedent and thus the guidelines do not violate the
Sixth Amendment).
The Michigan Court of Appeals initially found an
abuse of discretion and remanded for resentencing.
But instead of sending respondent to prison, the trial
judge actually reduced his sentence to time served (39
days). Petitioner again appealed, and again raised
both a state issue and the federal Sixth Amendment
issue. The Michigan Court of Appeals affirmed respondent’s sentence and the Michigan Supreme Court
denied leave to appeal.
Thus, in both the first and second appeal, petitioner preserved the claim that respondent was subject to mandatory prison, and that Michigan’s statutory guidelines do pass constitutional muster—that
the Michigan Supreme Court’s decision in People v.
Lockridge was wrongly decided under both the text of
the Sixth Amendment and this Court’s precedent.

8
REASONS FOR GRANTING THE PETITION
I.

The Michigan Supreme Court’s decision is
contrary to Blakely, where this Court
recognized that indeterminate sentencing
does not infringe on the role of the jury.

Indeterminate sentencing schemes such as Michigan’s have already been deemed by this Court not to
violate the Sixth Amendment. As this Court explained
in Blakely v. Washington, indeterminate sentencing
regimes do not implicate the jury’s factfinding role:
“[The Sixth Amendment] limits judicial power only to
the extent that the claimed judicial power infringes on
the province of the jury. Indeterminate sentencing
does not do so.” 542 U.S. at 308–09. While indeterminate sentencing “increases judicial discretion,” it does
not do so “at the expense of the jury’s traditional function of finding the facts essential to lawful imposition
of the penalty.” Id. at 309.
“Of course indeterminate schemes involve judicial
factfinding, in that a judge (like a parole board) may
implicitly rule on those facts he deems important to
the exercise of his sentencing discretion.” Id. “But”—
here is the critical reasoning—“the facts do not pertain to whether the defendant has a legal right to a
lesser sentence.” Id. As this Court concluded, “that
makes all the difference insofar as judicial impingement upon the traditional role of the jury is concerned.” Id. (emphasis added). Indeed, the Blakely
majority recognized that a State could eliminate “Apprendi infirmities” by “reestablishing indeterminate
sentencing.” Id.; accord id. at 332 (O’Connor, J., dissenting) (“A second option for legislators [after

9
Blakely] is to return to a system of indeterminate sentencing.”). “[T]he Sixth Amendment by its terms is not
a limitation on judicial power, but a reservation of jury
power.” Id. at 308 (emphasis added).
The Michigan Supreme Court failed to
acknowledge this critical difference between Michigan’s indeterminate sentencing regime and the determinate sentencing regimes at issue in Apprendi and
its progeny, up to and including Alleyne. But a parole
eligibility date is not a “sentence.” For this reason,
Michigan has an indeterminate system as that term
is properly defined.
Facts relating to parole eligibility do not pertain
to “a legal right to a lesser sentence,” id., but rather to
an opportunity for legislative grace. Rather than recognizing that this distinction “makes all the difference” under the Sixth Amendment, the Michigan Supreme Court ignored the difference.
II. The Michigan Supreme Court failed to grasp
the differences between determinate and
indeterminate sentencing.
Like most states, Michigan offers many of its prisoners the opportunity to be released on parole before
they have completed their sentences and become legally entitled to release. This approach to sentencing
arguably promotes rehabilitation more than determinate sentencing, because it leaves room for the government to release a prisoner if it is persuaded that
he may be safely released early to become a contributing member of society. E.g., Greenholtz v. Inmates
of Nebraska Penal & Corr. Complex, 442 U.S. 1, 8 &
n.3 (1979) (identifying “rehabilitation” as one of the

10
“traditional justifications advanced to support the
adoption of a system of parole”); Graham v. Florida,
560 U.S. 48, 73, as modified (July 6, 2010) (explaining
that “rehabilitation [is] a penological goal that forms
the basis of parole systems”).
The decision whether and when to grant parole is
in the discretion of the parole board (not the judge or
jury). Unlike most states, though, Michigan requires
its sentencing judges, rather than simply the parole
board or a statute, to determine when a prisoner becomes eligible for parole.
For most felony convictions, a Michigan judge will
impose a sentence composed of two numbers, known
as the “minimum sentence” and the “maximum sentence.” It was confusion over these terms that led the
Michigan Supreme Court to err.
A. The “minimum sentence” at issue in this
case is different from the “minimum
sentence” at issue in Alleyne.
The main source of the Lockridge majority’s error
was confusion over the different meanings of the term
“minimum sentence” in the respective sentencing systems—much like the confusion that might result if an
NFL fan began talking with a European “fútbol” fan
(i.e., a soccer fan). In the sentences at issue in this
Court’s cases—in Harris v. United States, 536 U.S.
545 (2002), in Apprendi, and in Alleyne—this Court
addressed determinate sentencing systems, where a
judge does not impose a minimum or a maximum sentence. Instead, a judge imposes a sentence that consists of one number. Thus, the “minimum sentence”
discussed in Harris and Alleyne is the lowest number

11
of the range from which the judge is authorized to select a sentence, and it matters because, if imposed, it
is the actual sentence the defendant must serve.
In Michigan, though, the term “minimum sentence” refers to something entirely different. It is not
a possible number of years that could pass before the
prisoner had a right to be released; instead, it is a parole eligibility date. Rather than leaving parole eligibility dates to be determined by a parole board or to
be set by statute, the sentencing-guidelines legislation
requires judges to score a number of “offense variables” (using facts about the crime) and “prior record
variables” (using facts about the offender’s prior record) and to use these scores to determine the number
of years the defendant must serve before becoming parole eligible. The defendant’s guidelines score, together with the severity of the crime being scored, results in a range of years, and the judge must choose a
minimum sentence within that range, unless there
are “substantial and compelling” reasons to depart, either upward or downward. Mich. Comp. Laws
§ 769.34(3).
Thus, the Lockridge majority was correct in some
sense, when it said, “Alleyne now prohibits increasing
the minimum as well as the maximum sentence …,”
870 N.W.2d at 512; when it referred to “Alleyne’s extension of the Apprendi rule to minimum sentences,”
id. at 513; and when it said, “In Alleyne the United
States Supreme Court overruled Harris and held for
the first time that the Apprendi rule applied with
equal force to minimum sentences,” id. True, those
cases did use those words. But it was not correct in the
sense that matters. Alleyne extended Apprendi—and

12
the Sixth Amendment—to minimum sentences in the
sense of the “floor” of a sentencing range because that
floor is an actual sentence—a period of time after
which the prisoner is entitled to release. But it did not
extend Apprendi or the Sixth Amendment to parole
eligibility dates, which is what minimum sentences
are under Michigan sentencing law.
In Michigan, a “minimum sentence” is nothing
more or less than a determination of when a defendant will become eligible to be considered by the parole
board for release on parole. And Michigan is not required, under the federal Constitution, to provide any
opportunity for parole. Greenholtz, 442 U.S. at 7
(“There is no constitutional or inherent right of a convicted person to be conditionally released before the
expiration of a valid sentence.”).
Further, there is no right to a jury determination
on parole eligibility at all; it is often controlled by statute, such that a prisoner must serve a certain percentage of his sentence before becoming eligible. E.g., Carroll v. Hobbs, 442 S.W.3d 834, 836 (Ark. 2014) (statute
required prisoner “to serve at least seventy percent of
his sentence before being eligible for parole”).
Nor is Michigan required to leave the determination of when a prisoner becomes parole eligible to a
jury, as opposed to a judge or a parole board or a department of corrections. In other words, a state
could—without offending the Sixth Amendment—
adopt a system where parole eligibility was determined solely by prison officials, which confirms that
parole eligibility is not a jury question.

13
B. Alleyne broke no new ground on the
question whether Michigan minimum
sentences are subject to Apprendi.
In light of the distinction between the two uses of
the term “minimum sentence,” the Michigan Supreme
Court erred when it held that Alleyne extended Apprendi to cover Michigan minimum sentences.
After Apprendi, and especially after Blakely, defendants brought several cases challenging the constitutionality of Michigan’s sentencing guidelines. At the
time of these challenges, Harris, which held that an
increase to a minimum sentence based on a judicial
finding of fact did not violate the Sixth Amendment,
536 U.S. at 568, was still good law. Accordingly, there
would be no basis to claim that raising the floor of a
guidelines range based on judge-found facts would
present any Sixth Amendment issue. But a guidelines
range has a ceiling as well as a floor, and that ceiling
could be subject to attack based on Apprendi.
But the Michigan Supreme Court rejected such
challenges four times, in People v. Claypool, 684
N.W.2d 278, 286 n.14 (Mich. 2004), in People v. Drohan, 715 N.W.2d 778 (Mich. 2006), in People v. Harper, 739 N.W.2d 523 (Mich. 2007), and in People v.
McCuller, 739 N.W.2d 563 (Mich. 2007). In other
words, the Michigan Supreme Court previously recognized that indeterminate-sentencing regimes do not
infringe on the Sixth Amendment because they do not
displace jury factfinding. E.g., Claypool, 684 N.W.2d
at 286 n.14; see generally Drohan, 715 N.W.2d 778.
As noted, the new ground broken by Alleyne was
not that it extended Apprendi from definite prison

14
terms to early release dates. The new ground was that
it extended Apprendi from ceilings of determinatesentence ranges to floors of determinate-sentence
ranges. In the face of repeated holdings that Apprendi
does not apply to a Michigan minimum sentence
range at all—floor or ceiling—the Michigan Supreme
Court erred in holding that Alleyne had any impact on
the question.
C. The Lockridge decision is a significant
break from precedent.
In every case in the Apprendi line in which this
Court has struck down a sentence based on a Sixth
Amendment violation, the sentence has either been a
term-of-years sentence at the end of which the defendant had a right to release (Apprendi, Blakely, United
States v. Booker, 543 U.S. 220 (2005), Alleyne), a life
sentence (Cunningham v. California, 549 U.S. 270
(2007)), or a death sentence (Ring v. Arizona, 536 U.S.
584 (2002), Hurst v. Florida, 136 S. Ct. 616 (2016)).
In contrast, when this Court has considered decisions affecting whether and when a prisoner might be
released without serving his full sentence, it has never
held that there is a right to have facts found by a jury.
For example, in Wolff v. McDonnell, 418 U.S. 539
(1974), this Court examined Nebraska’s system of
good-time credits—credit awarded to prisoners who
behave themselves in prison, which ultimately reduces the time spent in prison below the sentence imposed. E.g., Neb Rev Stat § 83-1,107(2). When a state
revokes those credits based on sufficiently serious
misconduct, it increases the amount of time until the
prisoner’s release. This Court held that the revocation

15
of statutorily guaranteed good-time credits deprives a
prisoner of a liberty interest, and thus implicates the
Due Process Clause. 418 U.S. at 556–57. But this
Court also held that a state may revoke good-time
credits without impaneling a jury. Id. at 570–71 (upholding Nebraska’s procedure of allowing an “Adjustment Committee” to determine the revocation of goodtime credits). And even though the Court specifically
mentioned the Sixth Amendment in the opinion, id. at
575–76, it did not give any indication that this early
release mechanism implicated the right to a jury trial
and deprived a prisoner of that process specifically required by the Constitution.
The Lockridge majority gave Wolff short shrift,
dismissing it as merely “involv[ing] a criminal defendant’s rights in parole proceedings.” 870 N.W.2d at 517
n. 23. But Wolff did not involve a criminal defendant’s
rights in parole proceedings. It involved a permutation of the very question at issue in Lockridge and
here. The revocation of good-time credits in Wolff and
the increase of a guidelines range here have the same
effect: they increase the amount of time a prisoner
must serve before being released early.
Morrissey v. Brewer, on the other hand, did involve a criminal defendant’s rights in parole proceedings. 408 U.S. 471 (1972). Significantly, Morrissey
held that no jury is required in parole revocations, but
that factual findings can be made by a “traditional parole board” without violating due process. Id. at 489.
Again this Court mentioned the Sixth Amendment in
the opinion without concluding that this factfinding
by someone other than the jury violated the Amendment. Because a revocation of parole increases the

16
portion of a sentence that is served in prison, the fact
that no jury is required is relevant here. And as noted
earlier, “[t]here is no constitutional or inherent right
of a convicted person to be conditionally released before the expiration of a valid sentence.” Greenholtz,
442 U.S. at 7.
By injecting a jury-trial right into an early release
question, the Michigan Supreme Court did something
remarkable in Sixth Amendment jurisprudence.
Whether this was error, as the State contends, or not,
this extraordinary expansion of a fundamental federal
constitutional right deserves this Court’s close examination.
III. Review is also warranted because the lower
court struck down an important state
statute based on federal law.
Michigan’s sentencing regime is an important
state law, governing every felony sentence Michigan
imposes. The regime is authorized by the State constitution, which provides:
The legislature may provide for indeterminate sentences as punishment for
crime and for the detention and release
of persons imprisoned or detained under
such sentences.
Mich. Const. Art. 4, § 45. A court has now struck that
statutory regime down, based on its misinterpretation
of federal law. Just as this Court routinely reviews decisions by lower courts when they strike down federal
statutes based on federal law, States also deserve this
Court’s careful review when lower courts strike down

17
state statutes based on federal law. (Indeed, until
1988, Congress required this Court to review decisions by federal courts of appeal that struck down
state statutes. Compare 28 U.S.C. § 1254(2) (1982 ed.)
(providing that review in such instances was “[b]y appeal”), with 28 U.S.C. § 1254(2) (1988 ed.)). While this
Court’s review of such decisions is discretionary, that
discretion should be exercised to recognize that democratically enacted laws at the state level deserve just
as much respect as those at the federal level.
Further, decisions like this, if left uncorrected,
will affect other states with indeterminate sentencing
regimes and will discourage other states from adopting a system like Michigan’s. Rather than leaving
states free to establish different penological goals
(such as promoting rehabilitation through the parole
process, and promoting uniform treatment through
mandatory guidelines concerning parole-eligibility
dates) as this Court contemplated in Blakely, the reasoning of the Michigan Supreme Court will eliminate
this valid and constitutional sentencing regime and in
so doing improperly deprive the people of their authority to govern themselves in this area.
IV. Unlike Michigan v. Lockridge, this case
presents a case and controversy.
When the State of Michigan filed a petition for certiorari directly attacking the Michigan Supreme
Court’s Lockridge decision, respondent Lockridge did
not argue that the Michigan courts correctly decided
his case, nor did he argue that the question was not
significant enough to merit a place on this Court’s
docket. His only argument was that the petitioner was

18
the prevailing party in the Michigan Supreme Court.
This Court denied certiorari.
In subsequent Lockridge-challenging petitions
filed before this Court, similar vehicle problems also
arose: in no other case was the State aggrieved by a
below-guidelines departure as petitioner has been
here. Again, Michigan statutory law requires respondent to serve a prison sentence (absent a finding of substantial and compelling reasons to depart downward),
yet the Michigan Supreme Court in Lockridge granted
judges such as the one here the discretion to ignore
the legislative mandate. The State objects to the sentencing relief granted to Shoulders—there is nothing
unconstitutional about the statutory requirement
that he serve prison time for driving drunk and killing
another human being.

19
CONCLUSION
For these reasons, the petition for writ of certiorari should be granted.
Respectfully submitted,
Kym Worthy
Wayne County Prosecutor
Jason W. Williams
Chief of Appeals,
Wayne County Prosecutor’s Office
David A. McCreedy
Assistant Prosecuting Attorney
Counsel of Record
1441 St. Antoine, Room 1116
Detroit, Michigan 48226
dmccreed@waynecounty.com
(313) 224-3836
Attorneys for Petitioner
Dated: MAY 2020

1a
PETITION APPENDIX
Michigan Supreme Court Order denying leave
to appeal
941 N.W.2d 55 (Mem)
Supreme Court of Michigan.
PEOPLE of the State of Michigan, Plaintiff-Appellant,
v.
William Larenzo SHOULDERS, Defendant-Appellee.
SC: 159642 COA: 342408
April 17, 2020
Wayne CC: 15-003289-FH
Order
On order of the Court, the application for leave to appeal the March 28, 2019 judgment of the Court of Appeals is considered, and it is DENIED, because we are
not persuaded that the questions presented should be
reviewed by this Court.

2a
Markman, J. (dissenting).
I respectfully dissent because I would not deny leave
to appeal but instead would remand for resentencing.
Contrary to MCL 769.34(3)(a), which provides that
“[t]he court shall not use an individual’s ... race ... to
depart from the appropriate sentence range,” the trial
court here expressly referenced defendant’s race in order to justify its departure sentence below the legislative guidelines. For this reason alone, resentencing is
warranted. Furthermore, however, the sentence of
probation imposed, in my view, constitutes an abuse
of sentencing discretion in light of the intrinsic seriousness of the offense at issue—operating a motor vehicle while intoxicated causing death, MCL
257.625(4). That is, for this offense, the sentencing
guidelines always provide for a sentence of imprisonment, even where all other offense variables (beyond
Offense Variable 3, which is necessarily scored at 50
points) are scored at zero and all prior record variables
are also scored at zero. See MCL 777.12f; MCL
777.33(2)(c); MCL 777.64.

3a
Michigan Court of Appeals opinion affirming
sentence
Court of Appeals of Michigan.
PEOPLE of the State of Michigan, Plaintiff-Appellant,
v.
William Larenzo SHOULDERS, Defendant-Appellee.
No. 342408
March 28, 2019
Wayne Circuit Court, LC No. 15-003289-01-FH
Before: Murray, C.J., and Gadola and Tukel, JJ.
Opinion
Per Curiam.
Following a bench trial, the trial court found defendant guilty of operating a motor vehicle while intoxicated (OWI) causing death, MCL 257.625(4), and OWI
causing a serious impairment of a body function, MCL
257.625(5). The recommended minimum sentencing
guidelines range was 43 to 86 months’ imprisonment;
however, the trial court sentenced defendant to four
years’ probation and three nonconsecutive weeks in
jail each year of his probationary term, as well as various other conditions, such as 365 hours of community
service, enrollment in an Alcoholics Anonymous program, grief counseling, and college courses. The prosecution appealed as of right.

4a
On appeal, this Court vacated defendant’s sentence
and remanded to the trial court for resentencing. People v. Shoulders, unpublished per curiam opinion of
the Court of Appeals, issued June 27, 2017 (Docket
No. 331672), p 3. This Court noted that, at sentencing,
“the trial court focused exclusively on the circumstances of the offender and articulated no consideration of the circumstances of the offense and the recommended minimum sentence range under the guidelines.” Shoulders, unpub op at 3. This Court concluded
that the drastic departure from the guidelines range
was not proportionate to both the circumstances of the
offender and the offense, and thus, the sentence imposed by the trial court was not reasonable without
further consideration by the court of the relevant factors set forth in People v. Steanhouse (Steahhouse I ),
313 Mich. App. 1, 46; 880 N.W.2d 297 (2015), aff’d in
part and rev’d in part on other grounds by People v.
Steanhouse (Steanhouse II ), 500 Mich. 453, 471
(2017). Shoulders, unpub op at 3.

5a
At the subsequent resentencing hearings, the court
considered the seriousness of the offenses, factors inadequately considered by the guidelines, and factors
not considered by the guidelines in fashioning the sentence that it believed was appropriate for the offenses
and the offender. At the conclusion of the hearings,
the trial court sentenced defendant outside the recalculated minimum sentencing guidelines range of 36 to
71 months’ imprisonment, sentencing defendant to a
reduced sentence of three years’ probation. Because
defendant had already served nearly two years of probation, defendant was sentenced to the remaining one
year and one day of probation. Defendant was also
sentenced to a total of 39 days in jail, time served, discharging defendant of any remaining jail time. In addition, the trial court required that defendant complete an additional 200 hours of community service.
The prosecution now appeals as of right.1 We affirm.

Defendant raises two jurisdictional challenges, each
of which is without any merit. First, defendant contends that, in regard to the prosecution’s argument
that People v. Lockridge, 498 Mich. 358, 399; 870
N.W.2d 502 (2015), should be reversed and defendant
sentenced to prison, this Court lacks jurisdiction to
hear this appeal. However, the existence of binding
Supreme Court precedent that says nothing about jurisdiction does not deprive this Court of jurisdiction.
Second, defendant contends that, because he has been
discharged from probation, this appeal is moot. However, this Court has jurisdiction to determine whether
the sentence was not proportionate.
1

6a
The prosecution first argues that the Supreme Court
erred when it struck down mandatory sentencing
guidelines in People v. Lockridge, 498 Mich. 358, 399;
870 N.W.2d 502 (2015), because mandatory guidelines
are not unconstitutional, and therefore, the trial court
erred in resentencing defendant outside of the guidelines range. The prosecution also recognizes that we
are bound by Lockridge, and has merely made the argument to preserve it for later use. We need say nothing more.
The main thrust of the prosecution’s appeal is that defendant’s sentence should be vacated and the case remanded for resentencing because the sentence was
not proportionate to the offense and the offender.
“A sentence that departs from the applicable guidelines range will be reviewed by an appellate court for
reasonableness.” Lockridge, 498 Mich. at 392. “[T]he
standard of review to be applied by appellate courts
reviewing a sentence for reasonableness on appeal is
abuse of discretion.” Steanhouse II, 500 Mich. at 471.
“A trial court abuses its discretion when its decision
falls outside the range of reasonable and principled
outcomes.” People v. Waterstone, 296 Mich. App. 121,
131-132; 818 N.W.2d 432 (2012).

7a
When determining whether a trial court abused its
discretion by departing from the sentencing guidelines, this Court looks to whether the trial court conformed to the principle of proportionality set forth in
People v. Milbourn, 435 Mich. 630, 661; 461 N.W.2d 1
(1990). Steanhouse II, 500 Mich. at 476-477. The principle of proportionality requires that the sentence imposed be proportionate to the “ ‘seriousness of the circumstances surrounding the offense and the offender.’
“ Steanhouse II, 500 Mich. at 460, quoting Milbourn,
435 Mich. at 636. “[T]he key test is whether the sentence is proportionate to the seriousness of the matter,
not whether it departs from or adheres to the guidelines’ recommended range.” People v. Dixon-Bey, 321
Mich. App. 490, 521; 909 N.W.2d 458 (2017) (quotation marks and citations omitted). In Steanhouse I,
313 Mich. App. at 46, this Court set forth several factors to be considered in determining whether a departure sentence is proportionate, including: “(1) the seriousness of the offense; (2) factors that were inadequately considered by the guidelines; and (3) factors
not considered by the guidelines, such as the relationship between the victim and the aggressor, the defendant’s misconduct while in custody, the defendant’s expressions of remorse, and the defendant’s potential for rehabilitation.” (Citations omitted.) When
sentencing a defendant, “a trial court must justify the
sentence imposed in order to facilitate appellate review, which includes an explanation of why the sentence imposed is more proportionate to the offense and
the offender than a different sentence would have
been.” Dixon-Bey, 321 Mich. App. at 525 (quotation
marks and citations omitted).

8a
On remand, the trial court acknowledged this Court’s
directive to address the seriousness of the offense, the
factors that are not adequately considered by the
guidelines, and the factors not considered by the
guidelines. Looking to the seriousness of the offense,
the trial court—after first discussing the theoretical
aspects of “seriousness”—ultimately weighed the seriousness by looking to defendant’s intent, noting that,
other than the intent to drink alcohol, there was no
intent or premeditation present, and therefore it was
ultimately a general intent crime.
The trial court also considered factors not adequately
considered by the guidelines. Contrary to the original
sentencing hearing, during the resentencing hearing
the trial court found that defendant’s prior record was
not adequately considered. The trial court found that
prior record variables (PRVs) 1 through 6, all assessed
at zero points, were not adequately considered by the
guidelines because they do not take into consideration
the environment in which a person lives, and essentially, the effect that the environment has on an individual’s life.2 Because defendant had not acquired any
kind of record, even for noncriminal conduct, the trial
court found that, based on the environment in which
he lived, a completely clear record spoke highly of defendant’s character.

9a

The court found that it is reasonable to consider the
fact that defendant was a young black man who had
grown up in a difficult area without any prior criminal
record or even traffic violations. The prosecutor argues in one sentence—thus with no development at
all—that the trial court erred in this regard, citing
People v. Gjidoda, 140 Mich. App. 294, 300-301; 364
N.W.2d 698 (1985). Although the trial court mentioned defendant’s race (in a positive manner), the
court was ultimately reflecting on defendant’s lawabiding character, in light of the community in which
he was raised. We do not consider this to be “a sentence... based upon an arbitrary classification, such as
race or religion.” Id. at 300.
2

10a
The trial court offered several other factors not considered by the guidelines that assisted the court in
fashioning an individualized sentence for defendant,
such as defendant’s employment history and his academic achievements. The trial court highlighted the
fact that defendant has a successful employment history as witnessed by the fact that he was the owner of
a landscaping business that he started in 2013 and
the owner of a tax expert business, and the fact that
he employed 10 people and provided for others. The
court also considered the fact that defendant had been
on the honor roll in high school and voted most likely
to succeed.
Furthermore, although this Court noted in the previous appeal that defendant’s prior criminal conduct
was already taken into consideration by the guidelines and that the trial court had not found that the
prior criminal record was not adequately considered,
on remand the trial court expanded on this issue, noting that the guidelines do not take into consideration
defendant’s overall record of law abidingness. The
court took into consideration the fact that defendant
did not have any traffic tickets, had no gang affiliation, paid his taxes, had no instances of being a minor
in possession or drunk and disorderly, and had no history of alcohol or substance abuse.

11a
On remand, the trial court weighed heavily defendant’s remorse, expressing that defendant’s remorse reflected positively not only on defendant’s character
but his potential for rehabilitation. The trial judge
emphasized his belief that defendant’s remorse was
genuine, and recounted listening to the police recording on which defendant was heard in anguish over
having been responsible for the death of the victim,
stating that in “forty years of being a lawyer and a
Judge, [he had] never heard something that, that
touched with anguish and remorse and sadness like
listening to that.”
In fashioning the sentence, the trial court also considered defendant’s postcrime conduct, which the guidelines do not consider, but which reflect on his character. The court focused on the fact that, after the accident, defendant did not flee or make up excuses, but
rather, he went to the aid of the injured, he admitted
that he had committed the crime, and he cooperated
with the police. The court opined that many young
men make excuses, but rather than make excuses, defendant took responsibility for his actions.

12a
The trial court also considered defendant’s postsentence conduct in determining the appropriate sentence, looking to defendant’s conduct during the two
years between his first sentencing and his resentencing. The trial court properly considered the updated
Presentence Investigation Report (PSIR), People v.
Triplett, 407 Mich. 510, 515; 287 N.W.2d 165 (1980),
and looked to the fact that defendant had completed
over 300 hours of community service, attended over
100 AA meetings, was in the process of establishing
his own AA group, and had enrolled in colleges
courses.
Also taken into consideration was the probation department’s findings, which are not considered by the
guidelines, that defendant was remorseful and a good
candidate for community supervision, and upon resentencing, defendant should be sentenced to his remaining term of probation. The trial court agreed with
the probation department’s recommendation that defendant was in fact a good candidate for community
supervision due to the fact that, since his original sentencing, defendant had been in the community and
there were no reports of probation violations.
The trial judge also articulated that, in considering
defendant’s postsentence conduct, defendant had
done everything that he was required to do, as witnessed by the fact that he showed up to all of his required obligations on time, he never tried to reschedule, and he had never been delinquent or tardy. The
trial court noted that all of the information gathered
regarding defendant’s postcrime conduct assists in determining defendant’s potential for rehabilitation.

13a
Upon a thorough review of the record, and in light of
the great deference we give to the trial court’s finding
and conclusions, we conclude that defendant’s sentence is reasonable. This Court has held that “a sentence that fulfills the principle of proportionality under Milbourn, and its progeny, constitutes a reasonable sentence under Lockridge.” Steanhouse II, 313
Mich. App. at 47-48. The trial court articulated consideration of all of the relevant factors set forth under
the principle of proportionality. In fashioning the appropriate sentence, the court considered the seriousness of the offense, looking to the fact that there was
no premeditation on the part of defendant, other than
the intent to drink alcohol. While the court noted that
this was ultimately an accident, the court took into
consideration the fact that the loss of life and injury
are very serious concerns. Aside from the trial court’s
consideration of defendant’s race, the trial court provided ample other reasons for imposing the sentence
that it did, including the fact that the guidelines do
not consider defendant’s reputation for completely
obeying the laws, defendant’s past achievements, such
as his employment and academic history, defendant’s
postcrime and postsentence conduct, defendant’s remorse and rehabilitative nature, and the probation
department’s recommendation that defendant be sentenced to probation because he is a good candidate for
community supervision. Thus, the trial court, upon review of the appropriate factors, determined that a probationary sentence was a proportionate sentence, taking into consideration this particular offense and the
circumstances of this offender. The trial court did not
abuse its discretion.
Affirmed.

